HHS/OIG-Audit--"Review of Payments to Medicare Managed Care Risk Plans for Deceased Beneficiaries, (A-07-99-01283)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Payments to Medicare Managed Care Risk Plans for Deceased
Beneficiaries," (A-07-99-01283)
February 10, 2000
Complete Text of Report is available in PDF format
(922 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the Health Care Financing Administration
(HCFA) paid $3.1 million to health maintenance organizations (HMO) for beneficiaries
who were deceased. Although HCFA had recouped $1.2 million of the improper payments,
$1.9 million remains outstanding due to both HCFA not being aware of all the
deaths and its lack of action to collect some identified overpayments. We recommended
that HCFA recover the $1.9 million erroneously paid and make immediate system
corrections to prevent continuing annual overpayments of $250,000 to HMOs for
the identified deceased beneficiaries. The HCFA generally concurred with our
recommendations. After issuance of our draft report to HCFA, we continued work
in this area and identified an additional $1.1 million in payments for beneficiaries
who died subsequent to the cut-off date of our initial review. We are recommending
that HCFA also take action to recover these additional overpayments.